No. 20-499

 

 

IN THE

Supreme Court of the United States

NATHANIEL RICHARD HULL, IN HIS CAPACITY AS CHAPTER 7
TRUSTEE FOR THE BANKRUPTCY ESTATE OF JEFFREY J. ROCKWELL,
PETITIONER,

v.

JEFFREY J. ROCKWELL

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

BRIEF FOR THE RESPONDENT IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,679 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 19, 2021.

wa

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.

  
